         OIG
         OFFICE OF INSPECTOR GENERAL


                                   Catalyst for Improving the Environment


Audit Report




         EPA Region 6 Needs to Improve
         Oversight of Louisiana’s
         Environmental Programs

         Report No. 2003-P-00005


         February 3, 2003
Report Contributors:                       Larry Dare
                                           Thomas Herrod
                                           Randy Holthaus
                                           Les Partridge




Abbreviations

AIRS:        Aerometric Information and Retrieval System
EPA:         U.S. Environmental Protection Agency
NPDES:       National Pollutant Discharge Elimination System
OIG:         Office of Inspector General
RCRA:        Resource Conservation and Recovery Act
                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C. 20460

                                                                                         OFFICE OF
                                                                                    INSPECTOR GENERAL




                                         February 3, 2003

MEMORANDUM

SUBJECT:             Final Report: 2003-P-00005
                     EPA Region 6 Needs to Improve Oversight
                     of Louisiana’s Environmental Programs



FROM:                Michael A. Rickey
                     Director for Assistance Agreement Audits

TO:                  Lawrence E. Starfield
                     Acting Regional Administrator
                     Region 6

Attached is our report entitled EPA Region 6 Needs to Improve Oversight of Louisiana’s
Environmental Programs, conducted as a result of the Region’s request. We discussed our
findings with your staff and issued a draft report. We summarized your comments in the
attached final report and included your complete response in Appendix B.

ACTION REQUIRED

In accordance with EPA Order 2750, you, as the action official, are required to provide this
office with a written response within 90 calendar days of the final report date. For corrective
actions planned but not completed by the response date, reference to specific milestone dates
will assist us in deciding whether to close this report. Please e-mail an electronic version of your
response to holthaus.randy@epa.gov.

We have no objection to the public release of this report. This final audit report contains
findings that the Office of Inspector General (OIG) has identified and corrective actions OIG
recommends. This audit report represents the opinion of OIG and the findings contained in this
report do not necessarily represent the final EPA position. Final determinations on matters in
this report will be made by EPA managers in accordance with established EPA audit resolution
procedures.
If you or your staff have any questions about this report, please contact me at (312) 886-3037, or
Randy Holthaus, Project Manager, at (214) 665-6620.

Attachment
                   Executive Summary

Purpose
          The U.S. Environmental Protection Agency (EPA) often authorizes states to carry
          out federal environmental programs on its behalf. EPA’s oversight of the states’
          implementation of such programs is critical to ensure that states are meeting
          federal requirements and achieving environmental results.

          From October 2001 to March 2002, EPA Region 6 received petitions from
          Louisiana citizens groups requesting that EPA withdraw three programs from the
          Louisiana Department of Environmental Quality (Louisiana): the National
          Pollutant Discharge Elimination System (NPDES) water program; the Resource
          Conservation and Recovery Act (RCRA) hazardous waste program; and the Title
          V air permit program. The petitions asserted that Louisiana was not properly
          implementing these programs, which EPA had authorized them to carry out.
          Our specific audit objectives were to answer the following questions:

          C Is EPA Region 6’s level of oversight sufficient to determine whether the
             State’s NPDES, RCRA, and Title V programs are effective?
          C How does EPA Region 6 know whether its oversight of the NPDES, RCRA,
             and Title V programs is successful?

Results in Brief
          EPA Region 6's oversight was insufficient and could not assure the public that
          Louisiana was protecting the environment because Region 6 leadership: (1) did
          not develop and clearly communicate a vision and measurable goals for its
          oversight of the State or emphasize the importance of consistently conducting
          oversight, (2) did not hold Louisiana accountable for meeting goals and
          commitments, and (3) did not ensure that data of poor quality was corrected so
          that it could be relied upon to make sound decisions. As a result, the working
          relationship between the Region and Louisiana was not cohesive, and the Region
          was unable to fully assure the public that Louisiana was operating programs in a
          way that effectively protects human health and the environment.

          Region 6 could not determine whether its oversight of the NPDES, RCRA, and
          Title V programs was successful because leadership had not defined what
          constitutes a successful oversight program, and had not identified the means for
          measuring the value of its oversight and linked that to environmental outcomes.
          Region 6 also did not conduct independent evaluations to assess the effectiveness



                                           i
        of its oversight. Effective oversight should enable EPA to proactively identify
        problems with state programs and help Louisiana improve its environmental
        programs to protect human health and the environment.

Recommendations
        We recommend that the EPA Region 6 Administrator take various corrective
        actions to improve Regional oversight of Louisiana. Included among those
        actions is developing and communicating a clear vision and measurable goals for
        oversight, holding Louisiana accountable for the results of its programs through
        stronger grant commitments, and working with the State to identify and correct
        inaccuracies in key databases. We also recommend the Region develop and
        implement a systematic process to gather and evaluate feedback from its state
        partners, and conduct independent evaluations of oversight. Although our audit
        focused only on the Region’s oversight of Louisiana, Region 6 may improve the
        oversight of all its states by implementing these recommendations.

Agency Comments and OIG Evaluation
        The Region disagreed with some aspects of our findings, and did not clearly
        indicate whether it agreed or disagreed with our recommendations. Therefore, we
        are requesting the Region to provide more specific responses within 90 days.
        During an exit conference, Regional managers told us they were pursuing new
        ways to improve their oversight of state programs, such as by developing
        agreements noting commitments and agreed-upon consequences that would be
        enforced by EPA if commitments were not met. The Region also indicated the
        report unfairly criticized them for failing to implement outcome-based
        environmental measures, since the Agency as a whole has been unable to do so.
        While we acknowledge that is the case, the Region needs to focus on achieving
        environmental outcomes when developing its oversight vision and goals.

        The Region provided comments and additional documentation to clarify portions
        of the report, and we incorporated that information as appropriate. At the end of
        Chapters 2 and 3 we summarized the Region’s comments, and then provided our
        evaluation of those comments. The full text of the Region’s response is in
        Appendix B.




                                         ii
                                 Table of Contents
Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                    i


 Chapters
       1       Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        1
                    Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1
                    Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       1
                    Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                2

       2       Region 6 Oversight Was Insufficient and Could Not Assure
                the Public That Louisiana Was Protecting the Environment . . . . . . . . .                                          3

                    Region Leadership Did Not Develop a Clear Vision
                     and Goals for Oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               3
                    Region Leadership Did Not Hold Louisiana Accountable . . . . . . . . . . . . .                                   7
                    Region Leadership Did Not Ensure That Data Was Reliable . . . . . . . . . .                                      9
                    Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    11
                    Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             12
                    Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           12
                    OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      13

       3       Value of Region 6's Oversight Was Uncertain                                ....................                      15

                    Region 6 Management Has Not Defined Successful Oversight . . . . . . . . .                                      15
                    Region Did Not Have Sufficient Measures for Oversight . . . . . . . . . . . .                                   16
                    Region Has Not Independently Assessed Oversight Processes . . . . . . .                                         17
                    Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      18
                    Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             18
                    Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           19
                    OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      19


 Appendices
       A       Details on Scope, Methodology, and Prior Audit Coverage . . . . . . . . . . . . 21

       B       EPA Region 6 Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

       C       Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49




                                                               iii
                                Chapter 1
                                 Introduction

Purpose
          Region 6 of the U.S. Environmental Protection Agency (EPA) recently received
          several petitions asserting that the Louisiana Department of Environmental
          Quality (Louisiana) was not properly implementing several programs that EPA
          had authorized it to carry out. Specifically, in October 2001, Region 6 received a
          petition from the Tulane Environmental Law Clinic requesting EPA to withdraw
          Louisiana’s authority to implement the National Pollutant Discharge Elimination
          System (NPDES) water program. In March 2002, the New Sarpy Concerned
          Citizens group petitioned Region 6 to withdraw from Louisiana the Resource
          Conservation and Recovery Act (RCRA) program for hazardous waste and the
          Title V air permit program.

          Due to the petitions, the Region 6 Regional Administrator asked the Office of
          Inspector General (OIG) to review how Region 6 oversees Louisiana’s
          implementation of the permitting and enforcement functions of the three
          programs. Our specific audit objectives were to answer the following questions:

          •   Is Region 6’s level of oversight sufficient to determine whether the State’s
              NPDES, RCRA, and Title V programs are effective?

          •   How does Region 6 know whether its oversight of the NPDES, RCRA, and
              Title V programs is successful?

Background
          EPA often authorizes states to carry out federal environmental programs on its
          behalf. EPA’s oversight of the states’ implementation of such programs is critical
          to ensure that states are meeting federal requirements and achieving
          environmental results. Sound federal oversight must include: (1) clearly defining
          and communicating to Agency employees a vision and measurable goals for
          oversight, (2) including results oriented goals and measures in state agreements,
          (3) monitoring and measuring results, (4) working with states to help achieve
          results, and (5) holding responsible parties accountable for results. If
          environmental results are not achieved, federal agencies may need to take strong
          actions to ensure results.




                                           1
        Region 6 has authorized Louisiana to carry out the following programs:


            Program    Authorization Date                      Intent of Program

            NPDES        August 27, 1996        To regulate the discharge of pollutants into
                                                waterbodies.

             Title V    October 12, 1995        To require operating permits for every major
                                                source of a regulated air pollutant.

             RCRA        February 7, 1985       To regulate hazardous waste from generation to
                                                disposal.




        The following three Region 6 divisions are responsible for oversight related to
        these programs:

        •   Water Quality Protection Division: Oversees the NPDES permitting
            program.

        •   Multimedia Planning and Permitting Division: Oversees the RCRA and
            Title V permitting programs.

        •   Compliance Assurance and Enforcement Division: Oversees the
            enforcement functions for NPDES, RCRA, and Title V.

Scope and Methodology
        We focused our work on Region 6’s oversight of Louisiana as it related to the
        state’s implementation of the NPDES, RCRA, and Title V programs from 1996
        through August 2002. We did not review the performance of Louisiana in this
        audit. We performed our audit in accordance with Government Auditing
        Standards, issued by the Comptroller General of the United States. We
        conducted our fieldwork from March 2002 to September 2002, primarily at
        Region 6 Headquarters in Dallas, Texas. In response to our draft report, issued
        November 1, 2002, Region 6 provided us with additional information, which we
        have incorporated into this report as appropriate. We also interviewed Louisiana
        officials in Baton Rouge, Louisiana. See Appendix 1 for details on the scope and
        methodology, as well as prior audit coverage.




                                            2
                               Chapter 2
      Region 6 Oversight Was Insufficient and
     Could Not Assure the Public That Louisiana
          Was Protecting the Environment
         EPA Region 6’s oversight must improve to ensure Louisiana’s implementation of
         the NPDES, RCRA, and Title V permitting and enforcement programs is
         effective. While Region 6 conducted varying levels of oversight of Louisiana’s
         activities, the oversight was insufficient because the Region 6 leadership:

         •   Did not develop a clear vision and goals for oversight.
         •   Did not hold Louisiana accountable for meeting goals and commitments.
         •   Did not ensure that data of poor quality was corrected so it could be used to
             make sound decisions.

         As a result, the working relationship between Region 6 and Louisiana lacked the
         cohesiveness needed to fully address complex environmental and human health
         issues. Further, Region 6 was unable to fully assure the public that Louisiana was
         operating programs in a way that effectively protects human health and the
         environment.

Region Leadership Did Not Develop a Clear Vision and Goals
for Oversight
         Region 6 leadership did not have an overall plan for conducting oversight of
         federal environmental programs authorized to states. Such oversight should help
         both EPA Region 6 staff and authorized states carry out programs effectively.
         EPA’s oversight is critical, and should include clearly defining what is expected,
         monitoring and measuring results, working with states to help achieve
         environmental results, and holding responsible parties accountable for results. If
         environmental results are not achieved, federal agencies may need to take strong
         actions to ensure results.

         Although the three programs addressed different media (air, water, and hazardous
         waste) and had different levels of funding, the goals of oversight should remain
         consistent. Because Region 6 did not operate with common oversight goals,
         Regional offices and staff had different understandings of what oversight was and
         should accomplish. We found these differences:




                                          3
          •    Within Region 6 divisions.
          •    Between Region 6 divisions.
          •    Between Region 6 and EPA Headquarters.

          As a result, Louisiana officials expressed concern with the inconsistent ways that
          Region 6 conducts oversight. Louisiana officials stated that the Region’s process
          exhibited an “overall lack of quality control and quality assurance,” and
          “significant variation(s) in guidance interpretation from one Region 6 staff to the
          next.” For example, a Louisiana official noted that Region 6 staff have
          sometimes established new policies for Louisiana rather than implementing
          policies that Region 6 managers had or should have created. Oversight
          inconsistency between divisions is heightened when staff are permitted to
          establish policy.

          The Agency has strategic goals and objectives for clean water, land, and air.
          Oversight of states is key because EPA relies upon states to achieve the Agency’s
          strategic goals. Inconsistency creates confusion and reduces the effectiveness of
          EPA’s oversight. The Agency’s strategic goals for clean water, land, and air need
          to be translated into an oversight goal that regional management and staff can use
          as a guide when dealing with states.

          Inconsistencies Within Divisions

          Within Region 6 there was inadequate communication between management and
          staff which resulted in inconsistent views of oversight responsibilities. For
          example:

          •    The Water Quality Protection Division Director1 defined the vision and goals
               of oversight differently than his staff. The director stated that oversight
               should ensure state programs provide the highest possible protection of human
               health and the environment, and that EPA and the state determine the
               environmental goals of a program and cooperatively assess the best solutions
               to obtain those goals. However, Water Quality Protection Division oversight
               team members stated that there were few environmental outcomes that
               measured oversight success. Rather, the oversight team measured success by
               the number of permits Region 6 reviewed, the number of permits issued by
               Louisiana, the quality of the permits reviewed, and the permit program
               reviews conducted at the state.




1
    This director was in an “Acting” role from January 2001 to June 2002.


                                                 4
• The Compliance Assurance and Enforcement Division’s Branch Chief for Air
   Issues assigned oversight roles and responsibilities to the air oversight
   coordinator. The branch chief told us that the Region’s air oversight
   coordinator for Louisiana maintained all information regarding oversight
   issues and, more specifically, details regarding review of compliance
   certifications. However, when we spoke with the coordinator, he stated that
   he neither reviewed the certifications nor was aware he was responsible for
   reviewing certifications. He also did not know who in Region 6 or Louisiana
   was responsible.

Inconsistencies Between Divisions

Because Region 6’s leadership did not define and clearly communicate its
oversight philosophy and set measurable goals for its oversight, Region 6
divisions were not consistent in the way they provided oversight. For example,
the NPDES permitting oversight team made semiannual visits to audit the NPDES
program, whereas the Title V permitting staff had not made an on-site visit to the
Louisiana Department of Environmental Quality to formally review the Title V
program in almost 6 years.

The following table shows some differences in the ways that Region 6 divisions
conducted oversight. We do not intend to suggest that all divisions should
operate exactly the same, nor is the table a complete list of all oversight activities.
Differences in oversight should be based on an overall plan or objective criteria.




                                   5
                                            Comparison of Selected Oversight Activities

                                                                                                     Compliance
                                                                                  Water Quality      Assurance &
                                                  Multimedia Planning &            Protection        Enforcement
                           Action                  Permitting Division              Division           Division

                                                  Title V           RCRA             NPDES           Enforcement

                    Has a dedicated                 No               No                Yes           Title V - No
                    oversight team2                                                                  RCRA - No
                                                                                                     NPDES - No

                    Conducts on-site                No               No                Yes            Title V - No
                    reviews regularly                                                                 RCRA - No
                                                                                                     NPDES - Yes

                    Verifies data systems           No           In process3           Yes            Title V - No
                                                                                                      RCRA - No
                                                                                                     NPDES - Yes

                    Reviews proposed               Some            Some4           All “majors,”          N/A
                    permits                     (about 10%)                       Some “minors”



                  The inconsistencies are magnified given the different organizational structures of
                  EPA and Louisiana. Louisiana is organized functionally. For example, one
                  Louisiana division – its Permits Division – handles the permitting activities for all
                  of its environmental programs. However, EPA is organized by media (such as
                  air, water, and hazardous waste) and, therefore, its permitting activities are spread
                  out among the Region’s divisions. Consequently, Louisiana’s Permits Division
                  receives program assessments from three different EPA program offices. Further,
                  Louisiana’s Permits Division has been visited by Region 6 NPDES oversight staff
                  at least 9 times in the last 6 years but never by EPA Title V oversight staff until
                  December 2002. Because Louisiana has the authority to structure its organization
                  as it wishes, Region 6 will likely benefit by adjusting its own processes to use a
                  more coordinated oversight approach.

                  Inconsistency Between Region 6 and EPA Headquarters

                  We noted inconsistency between EPA Headquarters’ guidance regarding
                  oversight and the actions actually taken by Region 6 staff. For example, Region 6
                  has not followed EPA Office of Enforcement and Compliance Assurance



        2
           As formally designated in the Region’s organization chart. While some Region 6 divisions may have
assigned oversight tasks to individuals, those tasks were collateral duties and not their full-time job.

        3
            According to the Region, they verify data in RCRAInfo on the internet from their Dallas office.

        4
            The Region’s RCRA program reviews federal facility, combustion, and high priority permits.

                                                            6
                   guidance to review 100 percent of Title V facility compliance certifications
                   because the Region believes it may not be necessary to review 100 percent to
                   have an effective oversight program. Region 6 officials said they believe it is
                   Louisiana’s job to review the compliance certifications, although they did not
                   know if that was happening. In December 2002, Region 6 stated that it had
                   reviewed 170 certifications, although they were unable to provide documentation
                   for that number. According to EPA headquarter’s Office of Enforcement and
                   Compliance Assurance, data in the Aerometric Information and Retrieval System
                   (AIRS) as of December 14, 2002, showed that Region 6 had reviewed 6 of the
                   252 Louisiana Title V compliance certifications submitted (2 percent) and found 1
                   of the 6 facilities (17 percent) was out of compliance.5 We confirmed with a
                   Louisiana enforcement official that Louisiana does not compare the certifications
                   against permit limits to identify compliance problems. Moreover, the Louisiana
                   Legislative Auditor’s Office confirmed in its March 2002 report6 that Louisiana
                   did not routinely compare permitted facilities’ annual air emissions statements to
                   permit requirements to determine whether facilities were in compliance. As a
                   result, Title V facilities may be incorrectly reporting they are compliant.

                   In another case, because Region 6 staff have not followed Headquarters’ 1998
                   guidance for conducting Title V fee audits, they were unaware as to whether
                   Louisiana employees were charging personnel costs properly. The Office of Air
                   and Radiation’s National Program Guidance directs regions to perform Title V fee
                   audits to verify the eligibility of Title V-related activities. During our work,
                   Louisiana staff indicated that they may have been charging their Title V work
                   efforts to other EPA air grant funds, although we were unable to confirm this.
                   The Title V program is supposed to be totally funded from fees that facilities pay
                   to obtain Title V air permits. Region 6 staff stated that they did not have any
                   processes to determine whether Louisiana staff were improperly charging Title V
                   work to EPA grant funds. The Region reviewed this issue in its December 2002
                   fee audit, but the Region does not expect to finalize its report until sometime in
                   February 2003.

Region Leadership Did Not Hold Louisiana Accountable
                   Region 6 has not held Louisiana accountable for results. Regional officials did
                   not place strong commitments in Performance Partnership Grants--the documents
                   that provide the funding--or Performance Partnership Agreements (which spell
                   out how the two organizations will work with each other and what is expected of



         5
             According to the Office of Enforcement and Compliance Assurance, as of December 14, 2002, the AIRS
database showed that Region 6 had reviewed a total of 53 certifications (6.5 percent) out of a total of 815 submitted
for all five of Region 6's states.
         6
             Performance Audit, Department of Environmental Quality, March 2002.
                                                          7
                    each). Further, Region 6 did not take action to ensure Louisiana implemented
                    strong, viable NPDES, RCRA, or Title V programs. OIG reports (see
                    Appendix 1) have identified areas where Louisiana has been unable to meet its
                    goals and commitments. Further, the Louisiana Legislative Auditor reported
                    significant and widespread problems with Louisiana’s operations, including:

                    •   There was a large backlog of permits to issue. Louisiana had not
                        issued 38 percent of the remaining initial Title V air permits, or 66 percent of
                        the NPDES permits it told Region 6 it would issue.7

                    • Louisiana did not know whether facilities were in compliance because self-
                        monitoring reports were either not submitted by facilities or could not be
                        located. Louisiana also did not routinely review self-monitoring reports to
                        determine whether the reports identified violations. The Auditor found
                        reports that showed violations of permitted limits for air and water.

                    • RCRAInfo – the EPA database into which states input information on
                        hazardous waste facilities – contained many errors.

                    Despite all of the documented problems with the performance of Louisiana’s
                    environmental programs, we found no evidence that Region 6 escalated its
                    oversight approach by placing conditions on grant funding, withholding funding,
                    entering into consent agreements, or holding public fact finding hearings.

                    Agreement/Grant Documents Need More Meaningful Commitments

                    There were no commitments within the Performance Partnership Agreements or
                    Grants that address the NPDES backlog, nor did EPA require Louisiana to issue
                    NPDES permits in a manner and number that will reduce the backlog. Rather, the
                    Region and the State made projections of what might be accomplished. The
                    grants are annual agreements that help lay out goals and performance
                    measurements. National guidance requires EPA to include these measures in the
                    form of outputs in its agreements with states. Although Region 6 recognized that
                    Louisiana was not issuing timely NPDES permits, it did not include a
                    commitment on the part of the state to submit a backlog reduction plan in any
                    grant documents. The Region only orally requested, as part of its 1998 end-of-
                    year review, that Louisiana submit a plan for reducing the backlog. Although
                    Louisiana did submit a plan in 2000, Region 6 officials said it is still incomplete
                    and the Region has continued to ask for more information to complete the plan.
                    Including these types of requirements in grant documents can be a valuable




        7
              Region 6 stated that as of September 30, 2002, Louisiana has reduced the backlog from 38 percent to
33 percent.
                                                           8
accountability mechanism.
In addition, EPA has
                                 The (State) and the Regional Administrator will develop a
recently changed its             process for jointly evaluating and reporting progress and
regulations for continuing       accomplishments under the (Performance Partnership
environmental grants to          Grant) work plan. A description of the evaluation process
require regions and states to    and a reporting schedule must be included in the work
jointly evaluate program         plan. . . . If the joint evaluation reveals that the recipient
                                 has not made sufficient progress under the work plan, the
progress; this provides          Regional Administrator and the recipient will negotiate a
Region 6 with an additional      resolution that addresses the issues. If the issues cannot be
tool for holding states          resolved through negotiation, the Regional Administrator
accountable (see box).           may take appropriate measures. . . .
                                            ~ Title 40 Code of Federal Regulations § 35.115

Region 6 also did not take
actions to ensure Louisiana
implemented strong, viable programs. For example, in the 1999 NPDES mid-year
review, Region 6 asked Louisiana to prepare a plan of action, within 14 days of
the review, for the issuance of 3 general permits that would regulate 16 facilities.
EPA subsequently requested the plan in the next two semiannual reviews,
meaning that the plan was over a year late. Region 6 staff stated that the plan was
never developed nor the permits ever issued. As a result, the 16 facilities are
operating and discharging into water bodies without a current permit.

EPA headquarters has recognized that the backlog of NPDES permits is a
nationwide problem and has developed a corrective action plan. This issue was
identified by EPA as a Federal Managers’ Financial Integrity Act weakness in
1998. According to Region 6, it is concerned that the number of major and
individual minor NPDES permits developed and issued by Louisiana since
assuming the program in 1996 has been half, or less, of what is necessary to
maintain the program. The Region also noted that about half of the major permits
issued for the past fiscal year were drafted either by EPA or a contractor. Further,
the number of individual minor permits issued dropped to about one-fourth of the
amount needed to administer the program. Region 6 stated that it has worked
with Louisiana to correct the NPDES backlog problem, and to ensure that
Louisiana implements measures to reach national backlog reduction goals. For
example, the Region prepared about 20 major permits during fiscal year 2002 for
Louisiana to assist in reducing its backlog. The Region has also worked with
Louisiana to establish a contract through which a contractor will help draft
permits for Louisiana to reduce the backlog.

Memorandum of Agreement Needs Updating

EPA and Louisiana are operating under an outdated and incomplete NPDES
Memorandum of Agreement. The 1996 NPDES agreement has not been updated
to include Louisiana’s current organization. After Louisiana reorganized in 1998,



                                 9
        the divisions responsible for preparing and providing important documents, such
        as Clean Water Management Plans and the Continuing Planning Process, no
        longer exist. To hold Louisiana accountable, EPA needs to know how Louisiana
        is organized and who is responsible for key activities and results.

Region Leadership Did Not Ensure That Data Was Reliable
        Region 6’s oversight was insufficient because it did not ensure that Louisiana
        provided timely and accurate information to key databases, so sound decisions
        could be made about Louisiana’s performance and effectiveness. Region 6 also
        did not determine the degree to which data was unreliable, even though they
        acknowledged the data was of poor quality. The EPA Inspector General notified
        the EPA Administrator in September 2002 that EPA faces a number of challenges
        with the data it uses to make decisions and monitor progress against
        environmental goals. EPA and most states often apply different data definitions,
        and collect and input different data, resulting in inconsistent, incomplete, and
        obsolete consolidated national data.

        Significant data quality issues exist in the RCRA and air databases. Region 6
        management in the RCRA program stated that they were aware of inaccurate
        historical information in its databases and did not rely upon it to make decisions.
        Instead, the Region stated it relied upon public notices, face-to-face
        communication, and close working relationships. Such methods of oversight are
        more subjective in evaluating Louisiana’s program performance and effectivness
        than relying on solid, verifiable data. RCRA program staff also told us they knew
        that the RCRAInfo database was inaccurate but had not yet taken strong action to
        ensure Louisiana corrects inaccuracies. In 1996, OIG reported that the
        Aerometric Information and Retrieval System (AIRS) database, including
        Louisiana data, was inaccurate, inadequate, and untimely. However, Region 6
        has not taken, or required Louisiana to take, action to correct the deficiencies.
        Inaccuracies were due, in part, to insufficient submissions by Louisiana, as well
        as Region 6 not validating the data.

        RCRA grant documents require Louisiana to maintain RCRA data to provide a
        complete and accurate picture of program accomplishments. Region 6 performs
        RCRA reviews based on data that they do not verify through on-site file reviews.
        Region 6 staff admitted they were unsure of the usefulness of the data, yet in
        some cases they relied on it for oversight purposes. Region 6 RCRA enforcement
        staff had not been on-site at Louisiana to verify data since a 1998 multimedia
        audit. The RCRA permitting program manager stated they are in the process of
        establishing a State Program Section to be the primary lead for coordinating and
        conducting oversight of each state’s permit and corrective action programs.




                                        10
        The 2002/2003 Memorandum of Agreement between Region 6 and EPA’s Office
        of Enforcement and Compliance Assurance states that Region 6 should ensure
        that all necessary information is entered into the appropriate data systems.
        Region 6 has relied on the data in AIRS, even though personnel acknowledged it
        is inaccurate. Region 6 has not tried to determine how inaccurate the data is, and
        until July 2002, Region 6 had not compared the data in the system to actual
        documents.

Conclusion
        Region 6 leadership did not have an overall vision for oversight. Also, the
        Region did not hold Louisiana accountable for results, and did not ensure that key
        data submitted by Louisiana was correct. Although the oversight of each program
        and enforcement element may present a variety of issues that require unique
        solutions, the overall goal or vision of the oversight process should remain
        constant. Along with having a clear and consistent goal, Region 6 should hold the
        state accountable for results. Further, since much of Region 6’s oversight work is
        done by reviewing national databases, the Region should take steps to ensure that
        data is accurate. As the Deputy Administrator’s Steering Group concluded in its
        November 2002 report entitled Managing for Improved Results, there is often a
        disconnect between the quality of the Agency’s performance measures and their
        supporting data. Recognizing this, the Steering Group recommended that
        managers ensure that data of adequate quality be made available to support the
        objectives reflected in the Agency’s Strategic Plan.

        Region 6 did not require Louisiana to meet commitments to reduce the NPDES
        backlog. Rather, the Region and the State made projections of what might be
        accomplished. Commitments involve a pledge of trust or an obligation to
        accomplish something, and consequences for not doing so are implied.
        Projections are merely estimates of possible future events based on trends. We
        believe that the Performance Partnership Grants contained projections, not
        commitments, and the Region should have done a better job to ensure Louisiana
        did its job to reduce the backlog. In its November 2002 report entitled Managing
        for Improved Results, the Deputy Administrator’s Steering Group concluded that
        mutual accountability must exist to achieve results. All government players in
        environmental protection have responsibilities that must be met and each entity
        should be accountable to the others for meeting its commitments.

        EPA and states, in general, have been unable to agree on state flexibility and
        accountability issues. State/EPA relations remain strained due to disagreements
        over: (1) respective roles and the extent of federal oversight; (2) priorities and
        budgets; and (3) results-oriented performance measures, milestones, and data. A




                                         11
       series of OIG audits identified that weaknesses in this area were due, in part, to a
       lack of leadership in providing a clear direction and expectations, and a lack of
       goals and related performance measures.

       Region 6 must help Louisiana gain the trust of the public. The recent petitions by
       Louisiana citizens groups indicate a need to restore trust. To help restore that
       trust will take a coordinated effort by Region 6, but we believe it is essential.

Recommendations
       We recommend that the Region 6 Administrator:

        2-1. Develop a clear vision for, and definition of, oversight and clearly
             communicate that to staff.

        2-2. Work with the Office of Enforcement and Compliance Assurance to reach
             agreement over the level of review of Title V compliance certifications
             needed to provide effective oversight.

        2-3. Determine whether Louisiana is properly charging its Title V work
             activities, and establish procedures to ensure that Louisiana’s future work
             efforts are charged appropriately to EPA grants.

        2-4. Hold Louisiana accountable for results through stronger grant
             commitments, including, but not limited to, placing special conditions on
             grants and, if necessary, withholding of funds.

        2-5. Update the 1996 NPDES Memorandum of Agreement to accurately reflect
             the current organization, roles, and responsibilities of both Region 6 and
             Louisiana, and update other Memoranda of Agreement or Understanding
             as needed.

        2-6. Work with Louisiana to validate data in AIRS, RCRAInfo, and the Permit
             Compliance System and correct inaccuracies.

Agency Comments
       The Region made several general comments about the report. First, it stated that
       the report was not specific enough in terms of which specific program the
       findings applied to. Also, there are good reasons for differences in oversight
       between permitting programs and the lack of uniformity does not mean oversight
       is inappropriate or ineffective. Further, the Region stated that effectiveness of a
       state program is not simply a matter of oversight of program activities. Besides a
       permitting program, an effective state water quality protection program comprises


                                        12
        many elements including the development of adequate water quality criteria and
        standards, comprehensive monitoring and assessment, and an effective
        enforcement program. Finally, according to the Region, the report failed to
        recognize all of the steps the Region has taken to improve the Louisiana
        programs. See attachment 3 of Appendix 2 for the list the Region provided to us.

        The Region agreed with most of our recommendations, except for withholding
        grant funds for failing programs (Recommendation 2-4). Regarding
        Recommendation 2-4, the Region believes that withholding funds from failing
        programs leads to poorer performance. The Region prefers to use part of the state
        allocation to obtain contractor support to assist states in conducting their
        programs.

OIG Evaluation
        This report intentionally draws more global, rather than program specific,
        conclusions regarding Regional oversight. We used specific examples to
        illustrate the overall findings. Although the report dealt with three different
        programs, we believe that the Region’s oversight vision and goals should be
        driven from the top of the organization and cover all programs. While we agree
        that the Region has made some progress, some of those actions have been taken
        since the citizen petitions were filed and our audit began. The Region should
        continue to perform new and different oversight techniques if previously used
        techniques are not achieving results.

        As noted above, the Region agreed with most of our recommendations, except for
        withholding grant funds for failing programs. Although we agree that using
        outside contracts to assist states should help states meet commitments, we
        continue to believe that withholding funds from poorly performing states should
        be considered in some cases. EPA has a fiduciary responsibility to ensure that
        federal funds are spent appropriately and toward the achievement of
        environmental goals. To continue to fund poorly performing programs wastes
        valuable resources. EPA has an obligation to include the withholding of funds in
        its array of accountability tools.

        In responding to the final report, the Region needs to provide an action plan with
        milestone dates for implementing each recommendation. For any
        recommendation the Region does not agree with, it needs to provide the basis of
        the disagreement and sufficient information to assist the OIG in resolving the
        issue.




                                        13
14
                               Chapter 3
     Value of Region 6's Oversight Was Uncertain
        The Region’s leadership had not defined what constitutes a successful oversight
        program, and had not identified the means for measuring the value of its oversight
        and linked that to environmental outcomes. Region 6 also did not conduct
        independent evaluations to assess the effectiveness of its oversight. As a result,
        the value of Region 6’s oversight was uncertain. Effective oversight should
        enable EPA to proactively identify problems with state programs and help
        Louisiana improve its environmental programs to adequately protect human
        health and the environment.

Region 6 Management Has Not Defined Successful Oversight
        Regional management had not defined what constitutes a successful oversight
        program. As a result, staff did not understand Region 6’s oversight goals or their
        own oversight expectations, nor did they clearly understand management’s
        oversight values and expectations. Without a clear definition of oversight,
        Region 6 cannot clearly measure the value of its oversight.

        The Deputy Regional
        Administrator gave us a memo
        (see box), dated June 26, 2000,    “. . .as Agency leaders, we establish the tone
        indicating Region 6’s intent to    and priorities within our organizations. . . .
                                           Attaining a cooperative relationship is an
        strengthen its partnership with
                                           evolutionary process which requires the
        Louisiana. However, we did         continued involvement of senior management
        not observe any specific           and stepwise execution of specific relationship
        actions Region 6 had taken to      building tasks. We believe the commitment to
        determine whether the intent       the cooperative relationship will be essential for
        and spirit of the memo was         the long term success of our organizations. . . .”
        implemented. Region 6                 – From June 2000 Memo prepared by
        management has not given a               EPA Region 6 and Louisiana for their staffs
        clear directive of what
        oversight consists of, and
        management has not guided its
        staff in developing an oversight measurement tool. The Deputy said that
        Region 6 is moving toward more environmental indicators, but did not identify
        any directly related to oversight.

        Because Regional management has not clearly defined oversight, the three
        Division Directors had varying views of the goal of oversight:




                                          15
         •   Region 6’s former Water Quality Protection Division Director stated
             oversight should ensure that programs operate properly and result in the
             highest protection for human health and the environment. He acknowledged
             that Region 6 should share some responsibility for the performance of its
             states, such as Louisiana.

         •   Region 6’s Multimedia Planning and Permitting Division Director stated that
             he personally “established the policies for oversight” in the RCRA and Title V
             programs. He said that oversight can vary depending on the circumstances,
             and agreed Louisiana needs to address outcomes rather than merely write the
             number of permits called for in workplans (outputs).

         •   Region 6’s Compliance Assurance and Enforcement Division Director
             defined oversight as providing assurance that the state operated a program as
             intended while doing so in a partnership environment (“trust but verify”). He
             noted that counting the number of permits issued, the number and amount of
             penalties assessed, and the amount of penalties collected are examples of tasks
             that the Region performs to assure itself that Louisiana is operating programs
             properly. He also said that it is the Region’s responsibility to encourage the
             state to do a better job if the numbers show they are not performing well. He
             also said poorly performing programs could be withdrawn without
             withdrawing the partnership with the state.

Region Did Not Have Sufficient Measures for Oversight
         Region 6 was unsure of the value of its oversight efforts because Region officials
         had not established goals, outcome measures, and processes for evaluating
         effectiveness. Moreover, Region 6 did not consider Louisiana’s success or failure
         as a measure of the Region’s overall oversight effectiveness. In general, Region 6
         did not focus its attention on environmental outcomes (actual improvements to the
         environment) as indicators of
         success, but rather focused on
                                              " ‘Managing for results’ is an approach to our
         outputs (specific tasks              work that can help us increase our focus on
         performed). While measuring          outcomes – actual environmental results such
         outputs is important, the            as cleaner air – rather than on more process-
         Government Performance and           oriented ‘outputs’ such as numbers of permits
         Results Act requires that EPA        written.”
         ensure environmental                   –EPA Chief Financial Officer’s website:
         programs result in outcomes             http://www.epa.gov/ocfo/planning/gpra.htm
         that actually improve human
         health and the environment
         (see box).




                                         16
        Region Could Not Measure Effectiveness of Oversight

        Region 6 could not determine whether it was using resources wisely and
        achieving program results because it did not measure outcomes, as required by the
        Government Performance and Results Act. Rather, Region 6 used output
        measures, such as numbers of permits reviewed. For example:

        •   The Water Quality Protection Division said it conducts many oversight
            activities. However, it was unable to cite any outcome measures that it uses to
            evaluate the success of its oversight efforts for Louisiana’s NPDES program.
            For example, the NPDES oversight team leader highlighted that Region 6
            objects to more permits than any other EPA region, but could not determine
            how that contributed to improved environmental outcomes.

        •   Regional RCRA managers said they did not have a formal process to evaluate
            the effectiveness of their oversight. Region 6’s RCRA permitting manager
            also said Region 6 currently has no real way to measure ecological and human
            health impacts; they evaluate RCRA oversight by counting activities, and
            consider themselves successful if they do not receive citizen complaints or
            outside criticisms. Further, Region 6 believes its oversight has been
            successful if Louisiana performs more tasks or takes on increased program
            responsibility. Although Region 6 lists RCRA outcome measures in its
            Performance Partnership Grant with Louisiana, it does not relate the
            achievement of these outcomes to the success or failure of its oversight.

        •   Region 6’s air enforcement coordinator for Louisiana told us he was not sure
            whether his oversight is successful because no one has told him how to
            identify success. He guessed that it was likely based on the comments he
            made in mid- and end-of-year reviews – if he found issues, the oversight was
            successful. Although Region 6 air and enforcement officials acknowledged
            the need to improve the effectiveness of their oversight, they had not
            established oversight evaluation measures.

Region Has Not Independently Assessed
Oversight Processes
        Region 6 does not know the
                                           “In managing for results, we...measure our
        value of, or how it can
                                           progress to see if our programs are really
        improve, its oversight efforts     working to accomplish what we intended, and
        because it did not evaluate the    make adjustments to improve our performance.”
        effectiveness of its oversight      – EPA Chief Financial Officer’s website:
        activities. Region 6 does not         http://www.epa.gov/ocfo/planning/gpra.htm
        have a formal process to plan,
        execute, evaluate, and revise



                                          17
        its oversight efforts, as recommended by EPA’s Chief Financial Officer (see box).
        Region 6 has not conducted an independent formal survey of its partner –
        Louisiana – to obtain feedback. Further, Region 6 divisions have not “peer
        reviewed” each other’s oversight (one division conducting a review of another
        division) to identify strengths and weaknesses. Region 6 has not identified
        oversight as a weakness in its annual Federal Managers’ Financial Integrity Act
        reviews.

Conclusion
        Regional management did not clearly define oversight or relate its oversight
        function to the achievement of Government Performance and Results Act goals.
        Regional management has not defined what constitutes a successful oversight
        program or ensured that staff understand goals and performance expectations.
        Without a clear definition of oversight, Region 6 will continue to be inconsistent
        in its oversight of Louisiana and be unable to evaluate the success or failure of its
        oversight or identify the benefit it provides. Because many environmental
        achievements are accomplished by states, federal oversight of state programs
        should be an integral part of Region 6’s approach to managing for environmental
        results. Without assessing how it can improve its oversight and, therefore,
        Louisiana’s program, Region 6 is not making the most effective and efficient use
        of its resources.

        Clear and strong leadership is needed to ensure that managers work together to
        help staff understand how the work they do supports the Agency’s long term
        goals. In its November 2002 report entitled Managing for Improved Results, the
        Deputy Administrator’s Steering Group concluded that senior leaders must work
        together as a team and be held uniformly accountable for achieving environmental
        results. Further, the report states that staff and managers must work efficiently
        and understand how their work and their programs fit into the Agency’s long-term
        strategic environmental goals.

Recommendations
        We recommend that the EPA Region 6 Administrator:

         3-1. Develop measurements of oversight success that emphasize outcomes
              versus outputs.

         3-2. Develop and implement a systematic process to gather and evaluate
              feedback from Louisiana staff as well as managers, and use the feedback
              to make adjustments to the oversight process.

         3-3. Conduct independent evaluations of oversight effectiveness of each of its



                                         18
               programs and make necessary improvements and incorporate identified
               strengths into other programs.

Agency Comments
        The Region stated that the divisions do have a common oversight goal–the
        Agency’s strategic goals for clean air and water, among others. These goals
        provide the guiding principles underlying the oversight of all state environmental
        programs, not just those that have been delegated. The Region also stated that the
        report unfairly criticizes the Region for an oversight program that focuses on
        outputs rather than outcomes. The Agency as a whole is presently working hard
        to develop more outcome-related measures as indicators of program success, but
        until those measures are developed and the Agency has the data to measure the
        accomplishment of them, it is unrealistic to implement them at the Regional level.

        Regarding the recommendations, the Region provided the following comments:

        3-1:   The Region stated that it is working with Headquarters to develop
               outcome based performance measures.

        3-2:   The Region believes it has already implemented this recommendation.
               The Region cited various activities it performs, including speaking with
               first line Louisiana managers regularly, holding conference calls between
               Region 6 management and Louisiana management, and holding an annual
               manager meeting to discuss issues.

        3-3:   The Region stated that it will explore other ways to constructively
               improve its programs.

OIG Evaluation
        We do not believe the Region operated with a common oversight goal. Each
        division had a different philosophy of what oversight was to accomplish.
        Regarding the need to develop environmental outcome measures, we
        acknowledge that the Agency, as a whole, is behind in its accomplishment of this
        important goal. We also agree that national program offices will need to take an
        active role in helping the regions develop outcome measures.

        Our evaluation of the Region’s comments on the recommendations follows:

        Regarding the development of outcomes (Recommendation 3-1) and evaluation of
        the oversight process (Recommendation 3-3), Region 6 appears to agree that
        improvements are needed. However, the Region’s response lacks specificity as to
        what will be done and when. The Deputy Administrator, in the report Managing



                                        19
for Improved Results, also highlighted the importance of measuring outcomes and
evaluating processes:

C      The Agency needs to develop and use environmental indicators to
       demonstrate progress toward achieving long-term or intermediate
       outcomes...it is important to focus more on outcomes in order to track its
       performance under the Government Performance and Results Act.

C      The use of performance information in a “feedback loop” is one of the
       most critical components of the Agency’s effort to improve the way it
       manages for results. Further, performance information, including results
       from program evaluations, must provide the basis for EPA’s
       accountability processes. The report recommended that managers conduct
       more program evaluations to help determine program effectiveness and
       progress toward results. The report was clear to point out that program
       evaluations are not program reviews.

In responding to the final report, Region 6 needs to provide specific actions, with
milestone dates, for implementing the recommendations and addressing the
finding in this chapter.

As for implementing a systematic process to gather and evaluate feedback from
Louisiana staff on the oversight process (Recommendation 3-2), Region 6
disagreed that additional actions were needed. While we acknowledge that the
Region does gather feedback from the State, we continue to believe the Region
should have a more structured process. A systematic process would allow the
Region to (1) obtain information on specific structured questions, (2) analyze and
aggregate responses received, (3) develop plans for corrective actions, and (4)
create a documented record to evaluate whether actions taken actually were
successful.




                                 20
                                                                              Appendix A

               Details on Scope, Methodology,
                  and Prior Audit Coverage
Scope and Methodology

          We conducted our audit fieldwork at EPA Region 6 Headquarters in Dallas,
          Texas; and at the Louisiana Department of Environmental Quality in Baton
          Rouge, Louisiana. We limited our review to the performance of Region 6
          oversight of the three programs cited in the petitions – NPDES, RCRA, and
          Title V. We interviewed Region 6 managers, including the Deputy Regional
          Administrator, as well as the Division Directors for the divisions responsible for
          oversight of the permitting and enforcement functions within the three programs:
          Water Quality Protection Division; Multimedia Planning and Permitting Division;
          and Compliance Assurance and Enforcement Division. We also interviewed
          Region 6 staff responsible for conducting oversight of Louisiana within those
          divisions, and interviewed Louisiana managers and staff.

          We reviewed the Region’s mid-year and end-of-year assessments of Louisiana for
          the three programs going back to 1996. We reviewed the Memoranda of
          Understanding between EPA Headquarters and Region 6 as well as the
          Memoranda of Agreement between Region 6 and Louisiana. We reviewed the
          performance measures identified in the Performance Partnership Agreements
          between EPA Region 6 and Louisiana.

          We also obtained information and analyzed data from the following EPA
          databases, but did not validate the data:

          C      Permit Compliance System (for NPDES)
          C      RCRAInfo (for RCRA)
          C      AIRS (for Title V)

          We interviewed staff from the following EPA Headquarters offices in
          Washington, D.C., responsible for NPDES, RCRA, and Title V issues:

          C      Office of Water
          C      Office of Solid Waste and Emergency Response
          C      Office of Air and Radiation’s Office of Air Quality Planning and
                 Standards
          C      Office of Enforcement and Compliance Assurance’s Office of Compliance
                 and its Office of Regulatory Enforcement.




                                          21
           We also reviewed oversight guidance that headquarters offices provided to the
           regions.

           We conducted our audit fieldwork from March 2002 to September 2002. We
           performed the audit in accordance with the Government Auditing Standards,
           issued by the Comptroller General of the United States, as they apply to program
           audits.

Prior Audit Coverage

           OIG Report No. 2002-P-00011, Public Participation in Louisiana’s Air
           Permitting Program and EPA Oversight (issued August 7, 2002): This report
           noted that Region 6 oversight of Louisiana’s Title V air permitting program
           needed improvement, especially as it related to reviewing permits for public
           participation issues.

           OIG Report No. 2002-P-00008, EPA and State Progress In Issuing Title V
           Permits (issued March 29, 2002): This report noted that permit issuance has been
           delayed among states, and that EPA did not provide adequate oversight and
           technical assistance to state and local Title V programs or use sanctions provided
           in the Clean Air Act to foster more timely issuance of Title V permits.

           OIG Report No. 6100309, Region 6's Enforcement and Compliance Assurance
           Program (September 26, 1996): This report included a review of air enforcement
           activities in Louisiana, and found that the data that Louisiana entered into AIRS
           was incomplete, inconsistent, and untimely.

           Louisiana Office of the Legislative Auditor Report, Performance Audit:
           Department of Environmental Quality (issued March 2002): This report, on all of
           the Louisiana Department of Environmental Quality’s programs (air, water, solid
           waste, and hazardous waste), found widespread problems in all of the programs
           reviewed. For example, Louisiana had not issued 38 percent of the initial Title V
           air permits, and had not issued 66 percent of the water permits it had told EPA it
           would issue. Also, 54 percent of hazardous waste units in the state were
           operating under expired permits. Louisiana also did not issue enforcement
           actions for 31 percent of inspection violations for water. Further, 26 percent of
           self-monitoring reports for water and 22 percent for air were either never
           submitted to Louisiana by facilities or could not be located.




                                           22
                        Appendix B

EPA Region 6 Response




         23
                                                                                      Attachment 1

                          Comments on the Draft Audit Report
                   EPA Region 6 Oversight of Louisiana’s Environmental
                             Program Needs Improvement
                           Assignment No. 2002-0695-xxxxx


Region 6 General Comments

The Office of Inspector General’s Report provides the results of a review of EPA’s oversight of
several programs (NPDES, RCRA, and Title V) delegated to the State of Louisiana. The report
makes some conclusions and recommendations that, when implemented, may lead to an
improved oversight program in Region 6. Although the report contains many valid points, there
are what we believe to be numerous generalized statements that we feel must be re-phrased, or
be made more specific, in order to accurately portray EPA’s oversight efforts for these programs.
For example, your statement:

        “The Region’s oversight was insufficient because it:
              1) did not operate with one consistent Regional oversight goal;
              2) did not hold Louisiana accountable for meeting goals and commitments, and
              3) relied on inaccurate data and data of unknown quality.”

is a very broad statement which is not substantiated in the specifics of the report, and does not
make clear whether reference is to one, two, or all three programs under review. We are also
concerned that discussions with senior managers were not sufficient to allow for a full
understanding of the oversight program conducted by Region 6.

1. Findings need to identify the program to which they apply.
The section entitled “Inconsistencies Between Divisions” contains a table at page 5 that does not
clearly or correctly illustrate the oversight that exists. Each program does, in fact, conduct
oversight, although the process by which oversight is conducted can vary. Since many
comments do not reference a particular program, they mislead the reader; each statement of
finding should identify the programs to which the finding applies.

2. Good reasons exist for some differences in oversight between permitting programs in the
three media areas.
First, the regulatory requirements, as well as policy guidance, are unique in the three programs,
leading to differences in oversight. (For instance, the Report criticized EPA’s failure to take
stronger action in response to the State’s failure to issue several water permits. It is important to
note that EPA is not allowed by regulations to object to a draft NPDES permit that has not been
proposed (see 40 CFR 122.2).)




                                                 24
Secondly, the priorities for oversight in one particular State may be higher or lower, depending
upon priorities for attention to a similar program in another State. Resource constraints and
management judgement also result in differences in the timing and manner of oversight.

3. Effective oversight must allow for program-specific variations.
There is admittedly a lack of uniformity in the oversight of the three media programs delegated
to LDEQ, but this does not mean oversight is inappropriate or ineffective. Region 6 programs
have held monthly conference calls, midyear and end-of-year reviews, and management
meetings. In some cases, such as the air program, on-site reviews occur on an alternating
schedule each year for all the Region 6 States. Nevertheless, reviews are still effectively
accomplished by other communication mechanisms for midyear and end-of-year reviews.
Similarly, on site Director meetings have been held to discuss and agree upon oversight review
site visits and agreement upon priorities over the fiscal year; however, those consolidated
meetings do not necessarily result in identical timeframes for oversight in each program.

4. Effectiveness of a State Program is not simply a matter of oversight of program activities.
Investigating how well EPA is overseeing the implementation of three separate delegated
programs is entirely different than investigating whether or not a State’s entire environmental
program is successful, i.e., is achieving some specified environmental outcome. For example, an
effective state water quality protection program comprises many elements besides a permitting
program, such as the development of adequate water quality criteria and standards,
comprehensive monitoring and assessment, development of appropriate TMDLs for impaired
water bodies, and an effective enforcement program. An evaluation of the implementation and
oversight of any one of the programs is merely one piece of information necessary to determine
if environmental outcomes are being achieved.

5. The Divisions do have a Common Oversight Goal
The Report is critical of Region 6 for not having established a common oversight goal for all
Divisions. We would like to point out that the common goal that all Divisions use is the
accomplishment of the Agency’s strategic goals and objectives for clean air, and for clean and
safe water, among others. These goals provide senior management and Regional staff the
guiding principles underlying the oversight of all state environmental programs, not just those
that have been delegated. The report would be enhanced greatly if the definition, or criteria,
being used to assess EPA’s oversight of these programs were specified.

6. Report fails to recognize Regional steps taken to date to improve State Program
The Executive Summary doesn’t acknowledge the steps taken by Region programs based on
EPA’s periodic oversight visits and monitoring of program outputs to improve the Louisiana
programs. The report further states that Regional officials did not place strong commitments in
Performance Partnership Grants (the documents that provide the funding) or Performance
Partnership Agreements (which spell out how the two organizations will work with each other
and what is expected of each), and did not take action to ensure Louisiana implemented strong,
viable NPDES, RCRA, or Title V programs. We believe this statement to be inaccurate.

Region 6 conducts mid-year and end-of-year reviews of the LDEQ programs. In the
enforcement area, we track inspection and enforcement commitments, identify data problems,

                                                25
monitor program deficiencies, and then work with the State to correct them. In the water
program, the Region has worked to negotiate stronger commitments in the grant work plans.
The Region, on an annual basis, sends out guidance to the State that includes priorities to be
included in the grant work plan. EPA has made increasingly stronger efforts to include these
priorities in the grant work plan during the negotiations. For instance, we have helped LDEQ to
implement specific measures to reduce the NPDES permit backlog. While the Region has made
some progress in these areas, we recognize the need to continue those efforts. Our oversight
activities also include an active technical assistance program, designed to support and enhance
the State’s programs. Many of the oversight-related activities taken by Region 6 are detailed in
Attachment 3.

7. The Report unfairly perceives a failure by the Region to implement “outcome-based”
measures.
The Report criticizes the Region for an oversight program that focuses on “outputs,” not
“outcomes.” We evaluate States using the EPA/ECOS-based core program measures. The
Agency as a whole is presently working hard to develop more outcome-related measures as
indicators of program success, but many are not yet in place. Until those outcome measures are
developed and the Agency has the data necessary to measure the accomplishment of them, it is
unrealistic to implement them at the Regional level.




                                               26
                                 Responses to Recommendations

2-1:   Develop guidance for Region 6 personnel regarding the degree of oversight to be
       implemented and a consistent, coordinated approach when conducting state oversight.

EPA agrees that senior managers should continue to take a more active role in effectuating a
coordinated and effective oversight framework for program managers to follow. Division
Directors have a different and broader view of oversight than their staff. Directors must view
State programs in a holistic fashion to ensure that all elements of these programs are functioning
adequately and in complementary fashion to ensure that broader environmental outcomes, such
as clean and safe water, are met. Program managers and staff are tasked with ensuring that
specific programs are being operated within the parameters for those programs established by
federal laws and regulations and EPA Headquarters policy and guidance. As noted above in
points 2 and 3, certain differences in the various oversight programs are necessary, and are
consistent with an effective oversight program.

2-2:   Direct Region 6 personnel to follow Office of Air and Radiation guidance to review all
       Title V compliance certifications and determine if facilities are out of compliance with
       permit limits.

This recommendation is too general to provide useful information on a course of action.
Region 6 follows appropriate guidance to the extent practicable. As noted above, there are
management priorities and resource issues which may limit the Region’s ability to review “all”
compliance certifications or other documents, and there is also a question as to whether a review
of 100% of all certifications is the best way to oversee a delegated program. The Region is
presently evaluating different review methods to find the most effective way to determine facility
compliance rates.

2-3:   Determine whether Louisiana is properly charging its Title V work activities, and
       establish procedures to ensure that Louisiana’s future work efforts are charged
       appropriately to EPA grants.

End of year and Title V permit fee audits are being conducted in December, 2002.

2-4:   Hold Louisiana accountable for results through stronger grant commitments, including,
       but not limited to, placing special conditions on grants and, if necessary, withholding of
       funds.

Over the years the Region has worked to negotiate stronger commitments in the grant work
plans; however, it has not adopted a practice to withhold funds directly from States based on
their inability to meet up to all of the requirements called for in their delegation agreements and
PPG work plans. The Region believes that it is counterproductive to withhold funds from failing
programs because it believes that this would lead to poorer performance. The Region is
committed to provide States with as much assistance and flexibility as necessary to make State-
delegated programs successful. This approach has achieved mixed result with the many state



                                                27
programs it oversees. Rather than withhold funds, Regional managers have worked with States
to devote part of their grant allocation to outside contracts to assist them with some of the
weaker parts of their programs, e.g., contractor assistance to draft NPDES permits. The Region,
on an annual basis, sends out guidance to the State that includes priorities to be included in the
grant work plan as another method to address program inadequacies. EPA has made
increasingly stronger efforts to include these priorities in the grant work plan during the
negotiations. While the Region has made some progress in this area, EPA continues to work to
strengthen State commitments and accountability.

2-5:   Update the 1995 NPDES Memorandum of Agreement to accurately reflect the current
       organization, roles, and responsibilities of both Region 6 and Louisiana, and update
       other Memoranda of agreement or Understanding as needed.

The Region agrees that the Memorandum of Agreement between it and LDEQ should be revised
and has made that comment to the State.

2-6:   Work with Louisiana to validate data in AIRS, RCRA Info, and the Permit Compliance
       System and correct inaccuracies.

EPA and LDEQ will continue to work to verify accuracy of data in all of the databases
mentioned. Data accuracy, timeliness, and accessibility are the underpinnings for the effective
management of any program. Many activities have occurred to improve the accuracy of data
which is not reflected in your draft report. See Attachment 2 for specific comments.

3-1:   Develop measurements of oversight success that emphasize outcomes versus outputs, to
       include a clear definition of oversight and a statement of Region 6's vision, values,
       direction, and performance expectations.

We agree that it is important to develop performance measures by which managers can gauge
outcome of programs on the environment. The Region is working with Headquarters on the
development of such measures, and on the securing of data needed to implement such measures.

3-2:   Develop and implement a systematic process to gather and evaluate feedback from
       Louisiana staff as well as managers, and use the feedback to make adjustments to the
       oversight process.

This recommendation has already been implemented. The Region systematically reviews all
aspects of the program activities, as well as all other quality funded programs, on a mid- and
end-of-year cycle to evaluate how well these programs are being operated. These reviews form
the basis for new, and sometimes stricter, grant workplan commitments on an on-going basis as
well as indicate where EPA can disinvest due to resource constraints. For many of its programs,
EPA has continual conversations and meetings with LDEQ staff in an effort to obtain feedback
and to identify those areas or processes in need of improvement.

Currently, other forms of oversight or communication include the following: all audit reports
and processes are discussed at length with each State; coordinators speak with first line State

                                                28
managers regularly; conference calls between LDEQ management and the EPA management
occur about once/month to once/quarter. EPA also holds an annual manager meeting to discuss
such issues in a State/EPA forum at the regional offices. Additionally, the Regional
Administrator and Senior Managers gather feedback when they meet with State counterparts on
a quarterly basis. In accordance with this theme, EPA has increased oversight activities and
offered a more coordinated approach to oversight in Louisiana based on grant commitments not
being met, program oversight activities, and previous State and IG audit reports regarding
LDEQ.

3-3:   Conduct independent evaluations of oversight effectiveness of each of its programs and
       incorporate strengths in other programs.

The request that the Region 6 Regional Administrator made to the Inspector General’s office to
conduct this review was, in essence, our attempt to have an independent review conducted. The
Region will also explore other ways to constructively improve its programs.




                                              29
                          Final Comments and Corrective Action Plan

Region 6 is committed to continuous improvement of its State’s oversight programs and will
plan to make the following modifications based on the IG’s Report:

       1. Clearly articulate the goal of oversight in order for LDEQ, EPA and the public to
       know what we expect to accomplish through oversight, how we will measure it, and
       consequences for non-performance. We expect to develop these criteria in consultation
       with all five States.

       2. Identify critical program elements or activities that are not being tracked or measured,
       and work with Headquarters, through the Strategic Planning process, to develop new
       performance measures, including outcome-based measures, for FY2005.

       4. Where there are program deficiencies, Region 6 will work with LDEQ to develop
       corrective measures and identify those areas where the Region can provide further
       assistance or guidance.




                                               30
                                                                             Attachment 2

                       OIG AUDIT REPORT
                      EPA REGION 6 OVERSIGHT OF
                     LOUISIANA’S ENVIRONMENTAL PROGRAMS



This Attachment attempts to correct inaccuracies that we identified based on a line-by-
line review of the report. We hope this is helpful to you as you prepare your final report.



                                  Executive Summary

Page i: Results in Brief


1.     OIG:          “The Region’s oversight was insufficient because it ...relied on
                     inaccurate data and data of unknown quality.”

       6PD-RCRA: This statement is not factual. Region 6 is aware of inaccurate
                 historical data and did not rely on it to make decisions. Instead, we
                 relied on Public Notices, face-to-face communication and close
                 working relationships. Reviewing databases is only one aspect of
                 effective oversight.




                                Chapter 1: Introduction

Page 2, Background

2.     OIG:          “Region 6 has authorized Louisiana to carry out the following
                     programs.” See chart on page 2.

       6PD-RCRA: This referenced chart is not factual because there have been
                 numerous updates to rule adoptions. Major rule adoptions are
                 listed below:




                                            31
                             Federal Rules          Checklist       Reference      Promulga-   Authorization
                                                                  (HSWA or FR)   tion or       Effective
     Cluster                                                                        HSWA
                                                                                      Date             LA

Base Program         ! Identification and Listing      IA                          11/11/81          02/07/85
                      (Part 261)

                     ! Hazardous Waste Lists           IB                          11/11/81          02/07/85

                     ! Characteristics of              IC                          11/11/81          02/07/85
                      Hazardous Waste

                     ! Generator Requirements          II                          11/11/81          02/07/85
                      (Part 262)

                     ! Transporter                     III                         11/11/81          02/07/85
                      Requirements
                      (Part 263)

                     ! Facility Requirements          IV A                         11/11/81          02/07/85
                      (Part 264)

                     ! Facility Interim Status        IV B                         11/11/81          02/07/85
                      Requirements (Part 265)

                     ! Permitting Requirements          V                          11/11/81          02/07/85
                      (Parts 270 & 124)

Recent               ! Biennial Report                  1          48 FR 3977      01/28/83          02/07/85
Requirements
(1/26/83-6/30/84)
                     ! Permit Rules; Settlement         2         48 FR 39611      09/01/83          02/07/85
(Non-HSWA             Agreement
requirements prior
to Non-HSWA I)       ! Interim Status                   3         48 FR 52718      11/23/83          02/07/85
                      Standards;
States must adopt     Applicability
rules by 7/1/85,
                     ! Chlorinated Aliphatic            4          49 FR 5308      02/10/84          02/07/85
and apply for
                      Hydrocarbon Listing
authorization by
                      (F024)
9/1/85
                     ! National Uniform                 5         49 FR 10490      03/20/84          02/07/85
                      Manifest




                                                             32
     Chapter 2: EPA Oversight Must Improve to Determine Program Effectiveness


Page 4, Inconsistencies within Divisions


3.      OIG: The branch chief told us that the Region’s air oversight coordinator for Louisiana
             maintained all information regarding oversight issues and more, specifically,
             details regarding review of compliance certifications. However, when we spoke
             with the coordinator, he stated that he neither reviewed the certification nor was
             aware he was responsible for reviewing certifications. He also did not know who
             in Region 6 or Louisiana was responsible.”

        6EN-A:        The report indicates that the Branch Chief for Air Issues indicated that the
                      Oversight Coordinator for Louisiana reviews Annual Compliance
                      Certifications (ACC). There must have been a misunderstanding of what
                      the Branch Chief said since specific individuals in the Branch are
                      designated to review ACC. In general the coordinator does review most
                      information provided by the state but not ACC.


4.      OIG:          The oversight team measures success by the number of permits reviewed
                      and the number of objections letters issued.

        6WQ-PO:       This statement is inaccurate. The Oversight Team measures success by
                      the number of permits issued by the State, the quality of the permits
                      reviewed by the staff, and the permit program reviews conducted at the
                      State.

                      The Branch does not use the number of objection letters issued as a
                      measure of success. Rather the Branch works with LDEQ to resolve
                      issues before the permit is sent to public notice. Because of this working
                      relationship only rarely is an objection letter issued to the state. In any
                      event, the Permits Branch reviews proposed permits to ensure they meet
                      the requirements under the Clean Water Act. Findings are also
                      documented in the mid and end-of-year evaluation reports which are
                      prepared annually.


5.      OIG:          For example, a Louisiana official noted that Region 6 staff have
                      sometimes established new policies for Louisiana rather than merely
                      implementing policies that Region 6 managers had or should have created.




                                               33
                     The Permits Branch is unaware of staff ever establishing policy and has
                     always realized the importance of working with States up front when
                     establishing all new policies.


Page 5, Inconsistencies Between Divisions

6.     OIG:          Table on page 5 that compares selected oversight activities indicates the
                     programs do not conduct on-site reviews regularly.

       6PD:          The chart is incorrect. Instead of “no’s”, Title V and RCRA programs
                     should be marked “yes” for:
                     C Operates as a formal oversight team
                     C Conducts on site reviews regularly,
                     C Verifies data systems
                     C Reviews proposed permits


7.     OIG:          The Chart on page 5 is incorrectly marked for Water Enforcement.

       6EN-W:        The Water Enforcement Branch was incorrectly marked “no” as operating
                     without a formal oversight team. The Branch has clearly identified
                     coordinators who work as a team during the conduct of their formal
                     meetings and audits, and act as principle points of contact for their state
                     counterparts. The team is also responsible for reviewing the audit
                     findings, drafting and finalizing the audit reports, and resolving any issues
                     raised by the state.

                     The Water Enforcement Branch was also incorrectly marked “N/A” as not
                     reviewing proposed permits. The state coordinators and designated staff
                     review all proposed/draft LDEQ permits (majors, minors and general
                     permits) received to determine if the permit is enforceable as written, and
                     to identify any errors or omissions in the permit limits or reporting
                     requirements.


8.     OIG:          The Chart on page 5 comparing selected oversight activities indicates the
                     RCRA programs are “in process” of verifying data systems.

       6PD:          This statement is not factual. The Region 6 Air and RCRA technical and
                     data management staff verify data in databases on an on-going basis [e.g.
                     it should be marked ‘yes’]

9.     OIG:          The Chart on page 5 comparing selected oversight activities indicates the
                     air and RCRA programs do not review proposed permits.


                                              34
      6PD:         This statement is not factual. The RCRA programs review some of the
                   proposed LDEQ , including: Federal facility permits, High Profile
                   Permitting Actions, and Combustion permits. The Air program reviews a
                   certain percentage of air permits every year.


10.   OIG:         The NPDES permitting oversight team makes semiannual visits to audit
                   the NPDES program, whereas the Title V permitting staff have not made
                   an on-site visit to the Louisiana Department of Environmental Quality
                   (LDEQ) in almost 6 years.

      6PD-AIR:     This statement is not factual. EPA provided information about numerous
                   forums for program reviews in the past. EPA has conducted monthly air
                   permitting conference calls, midyear and End-of-Year reviews, and have
                   held several management meetings. EPA has had the Louisiana Title V
                   review scheduled for the week of December 9, for several months.


Page 5, Inconsistency Between Region 6 and EPA Headquarters

11.   OIG:         We noted inconsistency between EPA Headquarter’s guidance regarding
                   oversight and the actions actually taken by Region 6 staff.

      6WQ-PO:      We are not aware of any differences between EPA HQs guidance and the
                   Region 6 approach to oversight. In addition, the EPA NPDES Permits
                   Branch continues to follow and has never deviated from the approach
                   regarding state oversight and permit review as outlined in the
                   Memorandum of Agreement executed between EPA and LDEQ when the
                   NPDES program was authorized to the state.


12.   OIG:         Region 6 officials said they believe it is Louisiana's job to review ACCs.

      6EN-A:       This statement is a misquote and a partial statement. The actual
                   discussion was that EPA needs to have an effective oversight program but
                   that may not require reviewing 100% of the ACCs. Report should be
                   corrected.




                                            35
Page 6, Inconsistency Between Region 6 and EPA Headquarters

13.   OIG:         “In another case, because Region 6 staff have not followed Headquarters’
                   guidance for conducting Title V fee audits, they were unaware as to
                   whether Louisiana employees were charging personnel costs properly.”

      6PD-AIR:     This statement is not factual. Recently EPA Headquarters set targets to
                   conduct fee audits in each of our States by calendar year 2005 or perform
                   fee audits with two of our States per fiscal year. Due to resources and
                   competing priorities, the fee audit for Louisiana was scheduled for
                   December 9, 2002. The audit will examine if fees are adequate to cover
                   the cost of the program; if fees are appropriately charged, and if air grant
                   funds are used for Title V work.

14.   OIG:         For example, Region 6 has not followed EPA Office of Air and Radiation
                   guidance to review 100 percent of Title V facility compliance
                   certifications.

      6EN-A:       Factual Error - Guidance on ACC is issued by the Office of Enforcement
                   and Compliance Assurance not the Office of Air and Radiation.


15.   OIG:         In 2002, Region 6 reviewed only 15 of 2,548 Title V compliance
                   certifications. . .

      6EN-A:       The IG report should specify the specific timeframe regarding this number
                   of ACC reviewed, since 2002 has yet to expire. Depending on the specific
                   timeframe involved the actual number of ACC's reviewed will probably be
                   significantly higher than the number cited in the report. For example,
                   currently (still 2002) 170 ACC's have been reviewed. As stated above, an
                   effective oversight program does not necessarily require that 100% of
                   ACCs be reviewed.


16.   OIG:         We confirmed with a Louisiana enforcement official that Louisiana does
                   not compare the certifications against permit limits to identify compliance
                   problems.

      6EN-A:       We believe OIG asked the wrong person at LDEQ about LDEQ's review
                   of ACC. LDEQ does review each ACC. The enforcement staff compares
                   the ACC which have significant deviations to the permit limits. Also,
                   regarding facility compliance, a facility's responsible official is required to
                   certify truth, accuracy and completeness for all ACC and 6 month reports.




                                             36
                    Region 6 is currently reviewing at least 170 ACCs for, among other
                    reasons, to evaluate whether reviewing 100% of the ACCs is an effective
                    way to use staff time. In the past the Region has developed a checklist for
                    ACC reviews and reviews a selected number of ACC. The Region has
                    detailed a staff person to spend full time on ACC review.



17.   OIG:          Moreover, the Louisiana Legislative Auditor’s Office confirmed in its
                    March 2002 report that Louisiana did not routinely compare permitted
                    facilities annual air emissions statements to permit requirements to
                    determine whether facilities were in compliance. As a result, Title V
                    facilities may be incorrectly reporting they are compliant.

      6EN-A:        LDEQ has procedures set forth to identify those sources not submitting
                    reports. They send letters to the facilities giving them a schedule to
                    comply with. If a facility does not comply with the schedule to submit,
                    enforcement action is taken.

                    LDEQ has other enforcement processes in place to determine facility
                    compliance. The LDEQ enforcement program includes on-site
                    inspections, file reviews including ACC and 6 month monitoring reports.
                    EPA does need to work with LDEQ to further incorporate the 6 month
                    monitoring reports into their routine enforcement process.


Page 6, Region Leadership Did Not Hold Louisiana Accountable


18.   OIG:          There was a large backlog of permits to issue. Louisiana had not issued
                    38 percent of the remaining initial Title V air permits it committed to
                    Region 6 to issue.

      6PD-AIR:      This statement is not factual. As we documented in our previous
                    comments, Louisiana is average for issuance of Title V permits. National
                    statistics, as of September 30, 2002, on initial Title V issuance rates
                    indicate that the average issuance rate is 75%. Louisiana has issued 67%
                    of their initial Title V permits. LDEQ has committed to issue all
                    remaining initial Title V permits by December 2003. We will continue to
                    work with the State in developing the appropriate plan to accomplish this
                    goal. The December 2003 deadline that was negotiated between the
                    Region and LDEQ demonstrates oversight by the Region.



                    In addition, the OIG should review the December 2 memorandum from

                                             37
                     Carl Edlund to Randy Holthaus which gave examples of how LDEQ was
                     being held accountable for meeting environmental goals in its standard-
                     setting, permitting, and monitoring programs.


Page 7, Region Leadership Did Not Hold Louisiana Accountable

19.   OIG:           “...the EPA database into which states input information on hazardous
                     waste facilities contained many errors.”

      6PD-RCRA: This statement is misleading. During FY 2001 the Region completed a
                massive data cleanup initiative of the RCRA Info permitting data. We
                performed comprehensive reviews and researched files and facility
                documents. We then began correcting identified data anomalies.
                Summary narrative reports were written for each GPRA facility which
                included detailed descriptions of each unit in the facility, its current status,
                and activities that occurred during the life of that unit. This information
                was provided to the state for review, data verification/correction, and other
                appropriate action. The Region met with the state on several occasions to
                review information and make corrections.

                     In August 2002, a team of scientists, engineers, and data EPA personnel
                     spent a week at LDEQ reviewing files and documents, interviewing state
                     staff and updating the EPA database.

      6EN-H:         Region 6's RCRA Enforcement Program MY and EOY identifies data
                     problems which the state corrects, as quickly as possible.


20.   OIG:           Despite all of the documented problems with Louisiana’s carrying out its
                     environmental programs, we found no evidence that the Region escalated
                     its oversight approach by placing conditions on grant funding,
                     withholding funding, entering into consent agreements, or holding public
                     fact finding hearings.

      6PD-RCRA        This statement is not factual. For example, during FY 96, the Region
                     identified a significant problem regarding combustion permits issued by
                     LDEQ. Despite the fact that Louisiana had one of the largest combustion
                     unit universes in the country, no combustion permits had been issued.
                     The Region pursued a joint workshare agreement with LDEQ and
                     withheld authorization until an agreement was reached. For over five
                     years, the State has worked with EPA to complete the permitting process
                     for combustion units. The Region 6 RCRA program has evaluated the
                     current information available to us and has not found significant


                                             38
                  problems with the Louisiana RCRA permitting program at this time.


Page 7, Agreement/Grant Documents Need More Meaningful Commitments

21.   OIG:        There are no commitments within the Performance Partnership
                  Agreements or Grants that address the NPDES backlog, nor does EPA
                  require Louisiana to issue NPDES permits in a manner and number that
                  will reduce the backlog. The grants are annual agreements that help lay
                  out goals and performance measurements. National guidance requires
                  EPA to include these measures in the form of outputs in its agreements
                  with states.

      6WQ-AT:     The information in the first sentence is not factual and it does not
                  recognize all of the steps that the Region has taken to correct problems.
                  EPA has consistently worked with LDEQ, via the P.P.G. work plan to
                  ensure that LDEQ implement measures to reach national backlog
                  reduction goals for major and minor permit issuance. LDEQ, has
                  submitted a backlog reduction strategy and has stated via the work plan,
                  that they will review the backlog reduction strategy and keep it current.
                  The Louisiana FY 02 P.P.G. Work plan includes specific permit issuance
                  projections for FY 02 as follows: major permits - 65; minor permits -
                  415; new or renewal general permits - 3; general permit: non-storm water
                  - 650 and MSGP & Construction - 700.

                  The Work plan also states “Louisiana acknowledges that permit issuance
                  is an important aspect of the NPDES program and LDEQ senior
                  management is committed to the elimination of the NPDES backlog. To
                  reduce the backlog to less than 10% for all permits within the next four
                  years, Louisiana DEQ has identified and implemented several proactive
                  strategies, presented in that document.” In addition, the grant work plan
                  includes activities that address the Region and State efforts to reduce the
                  backlog through a national contract. The State designated a portion of
                  their CWA, Section 106 allocated funding for EPA use as in-kind
                  assistance to be awarded in a national contract to draft permits in an
                  effort to reduce the permit backlog. Also, the State has used CWA,
                  Section 104(b)(3) grant funding to enter into a State contract to draft
                  permits to reduce the backlog. EPA held numerous meetings with LDEQ
                  to garner commitments from LDEQ to issue a sufficient amount of
                  permits to eliminate the backlog of major/minor permits by 2004/2005.
                  These permit issuance commitments were placed in the P.G.

      6WQ-PO:     In addition, the EPA Permits Branch has been proactive in its approach to
                  assisting LDEQ in overcoming its backlog problems. Multiple meetings


                                           39
                    and conference calls have been held, and EPA prepared approximately
                    20 major permits during FY 02 to assist LDEQ in reducing its backlog.

22.   OIG:          Although Region 6 recognized that Louisiana was not issuing timely
                    NPDES permits, it did not include a commitment on the part of the state
                    to submit a backlog reduction plan in any grant documents.

      6WQ-AT:       The backlog strategy has been a part of the grant work plan negotiations.
                    In addition, the backlog reduction strategy has been addressed in the past
                    several Louisiana P.G. Workplans. Please note that the FY 02 Work
                    plan states “In FY 2000, Louisiana developed a strategy document to
                    address national concerns regarding the NPDES program and specifically
                    the backlog of facilities operating under expired yet administratively
                    continued permits or facilities where permits have never been issued.” It
                    further states “LDEQ will review the strategy document periodically and
                    keep it current.”


Page 8, Region Relies on Inaccurate Data

23.   OIG:          RCRA program staff told us they knew that the RCRAInfo database is
                    inaccurate but have not yet taken strong action to ensure Louisiana
                    corrects inaccuracies. And “...Region 6 has not taken, or required
                    Louisiana to take, action to correct the deficiencies.”

      6PD-RCRA: This statement is not factual. The Region 6 RCRA program met with
                Louisiana Senior staff to alert them of the issue. Region 6 has taken
                specific steps to identify anomalies. From a broader perspective, this is a
                small aspect of Louisiana’s program, albeit an important one. Louisiana
                is making progress to correct information, but all corrections have not yet
                been made. The fact that some of the historical data is inaccurate doesn’t
                mean Louisiana is not running an effective program.

24.   OIG:          In 1996, OIG reported that the Aerometric Information and Retrieval
                    System (AIRS) database, including Louisiana data, was inaccurate,
                    inadequate, and untimely. However, Region 6 has not taken, or required
                    Louisiana to take, action to correct the deficiencies.

      6PD-AIR:      This statement is not factual. Since 1994 monthly then quarterly reports of
                    all activity in the data system were provided to the state and the
                    appropriate state project officers. The project officers have reviewed and
                    retained these reports in the grant files. The state was asked to review and
                    validate these figures. Additionally, the 1996 OIG audit (Region 6's
                    Enforcement and Compliance Assurance Program) referred to Significant


                                             40
                     Violator data tracking in AFS. There was quite a bit of action taken after
                     that audit, resulting in a Memorandum of Agreement (MOA) between the
                     Multimedia Planning and Permitting Division and the Compliance
                     Assurance and Enforcement Division, outlining a procedure to ensure the
                     HPV (SV is now High Priority Violator) data in AFS was correct.
                     Monthly teleconferences were established with Louisiana tasked with the
                     manual update of AFS for these sources. Files reflect records of these
                     monthly calls are maintained.

Page 8, Memorandum of Agreement Needs Updating

25.   OIG:           The 1995 NPDES agreement has not been updated to include Louisiana’s
                     current organization.

      6WQ-PO:        Please note that the effective date for the NPDES Memorandum of
                     Agreement between EPA and LDEQ is August 27, 1996.


Page 9, Conclusion

26.   OIG:           EPA and states in general have been unable to agree on state flexibility
                     and accountability issues.”

      6EN-W:         This is a national issue. Both EPA and states need to be accountable.


           Chapter 3: Region 6 Could Better Measure Its Oversight Effectiveness



Page 12, Region Could Not Measure Effectiveness of Oversight

27.   OIG:           “...they [Region 6] evaluate RCRA oversight by counting activities, and
                     consider themselves successful if they do not receive citizen complaints or
                     outside criticisms.”

      6PD-RCRA: This statement is not factual. Lack of criticism does not indicate success
                of a program.




                                              41
                                                                                      Attachment 3

                                   OIG AUDIT REPORT
                           EPA REGION 6 OVERSIGHT OF
                       LOUISIANA’S ENVIRONMENTAL PROGRAMS
                         Description of Current Oversight Activities

       Attachment 3 provides brief descriptions of some of the oversight activities undertaken
by EPA Region 6 to evaluate Louisiana Department of Environmental Quality’s environmental
programs audited by the Office of Inspector General. The following narrative does not represent
an exhaustive list of activities conducted by each of the programs discussed below. Additional
information regarding oversight activities can be provided to the OIG upon request.

                                  NPDES Permitting Program

        The Clean Water Act authorizes EPA and approved States to administer the NPDES
program. This program is the basic regulatory mechanism for ensuring dischargers meet the
requirements of the Clean Water Act. The States of Arkansas, Louisiana, Oklahoma, and Texas
are approved to administer the NPDES program in Region 6. EPA retains the lead responsibility
in the State of New Mexico.

        CWA, Section 106 allows for grant funding of the NPDES permitting activities. Section
106 funding has been awarded to Louisiana via categorical grants and more recently through
Performance Partnership Grants. The Region has negotiated grant workplans with Louisiana
that have included specific commitments for permitting activities. The Region performs
oversight of the State’s negotiated workplan activities to determine progress toward completing
the outputs identified in the approved workplan.

        EPA Region 6 Oversight of the States NPDES Program is modeled after the National
Guidance for Oversight of NPDES Programs, dated May 1987. Most important oversight
activities include routine real time permit reviews of all major permits drafted by the states and
biannual Permit Program reviews conducted at the States offices. Permit reviews are performed
to ensure Clean Water Act requirements are met. Comprehensive program reviews evaluate the
states permitting program including permit issuance rates and processes, pretreatment, toxicity
controls, and implementation of state and federal regulations. A number of state issued permits
not previously reviewed by EPA are reviewed at this time for technical adequacy. Findings of
these comprehensive program reviews, including program strengths and deficiencies, as well as
recommended corrective actions are provided in mid year and end of year reports. Since the
authorization of NPDES program to the State of Louisiana on Aug. 27, 1996:

       •       The EPA has conducted 10 mid- and end-of-year evaluation reports.
       •       LDEQ has attended 4 program managers meetings to discuss problems and new
               initiatives affecting state programs.
       •       EPA & LDEQ have periodically conducted monthly conference calls on backlog


                                                42
              issues.
       •      EPA has had a minimum of 11 meetings with LDEQ to discuss the backlog.
       •      EPA has had a minimum of 4 additional meetings to discuss other permitting
              issues.
       •      EPA and LDEQ have held at least 4 meetings to discuss PPG activities.
       •      EPA and LDEQ have held 3 meetings to discuss the SAIC contract for
              preparation of LPDES permits.

        All program evaluations, development of strategies and policies and permit comments are
discussed at length with the state. This allows them to have input in Federal oversight of their
program. EPA State coordinators speak with first line state managers regularly. Conference calls
between LDEQ management and the NPDES Branch chief and Team Leader occur at least once
per quarter. EPA also holds an annual program managers meeting to discuss any program issues
in a State/EPA forum at the Regional offices.




                                              43
                                       RCRA Permitting

         To continually improve our oversight, the Region 6 RCRA program regularly asks the
state to evaluate the effectiveness of our programmatic responsibilities. Program issues are
informally discussed with the States during the Mid-Year grant review, and are used as a basis
for grant negotiations. In addition, the Region does programmatic assessments/reviews as a part
of the authorization process. We prepare MOUs with the State as each authorization cluster is
implemented.

         Oversight has evolved into a technical assistance approach with our authorized states to
best utilize our resources and provide support that will enhance the States’ programs. Areas of
EPA technical expertise and assistance include: combustion support (trial burn plan reviews, risk
assessments, combustion workshare agreements, periodic technical exchange meetings);
Corrective Action (Region 6 Corrective Action Strategy, Ready for Reuse, Base Closure team,
Groundwater modeling); Participation in site-specific activities (i.e. Calcasieu) including
attending LDEQ’s quarterly CA and legal meetings to provide a technical assistance and
oversight, providing air modeling assistance to LDEQ to site additional air monitors in the Lake
Charles area; PPG/TSCA combustion unit testing in 2001 (peer review of trial burn plans and
oversight of the trial burn; finalizing the BIF risk assessments per the Combustion WorkShare
agreement and its impact on RCRA grant commitments; HWC MACT/Title V permit
coordination to address RCRA risk, per the Combustion WorkShare agreement; Dow-Plaqumine
groundwater monitoring technical assistance (national experts in EPA’s KERR lab in Oklahoma)
due to complexity of assessment and independent technical review; ensure state progress in
addressing the GPRA CA facilities and GPRA permit workload universe; and Training (RCRA
Overview training for staff new to RCRA permitting, RCRA Corrective Action training on “how
to tailor a HSWA permit.” In addition, the Office of Solid Waste (OSW) at EPA Headquarters
does independent analyses of Regional/State effectiveness for meeting GPRA measures.




                                               44
                                        AIR Permitting

Air State Tribal Operations. The Air State Tribal Operations program discusses Program
issues with the State during the Mid- and End-of-Year grant reviews, and participates in grant
negotiations on an annual basis. The State Tribal Operations program most recently conducted
an on-site EOY review in December, 2002. A questionnaire (attached) was provided to the State
ahead of time to obtain specific details of accomplishments which were discussed at the end-of-
year review. The State Tribal Operations program also conducted the Title V Fee review in
December, 2002.

To improve accountability, the State Tribal Operations program enhanced the FY03 workplan to
have more specific air permitting, planning and monitoring requirements.

The Air program holds annual State-EPA planning meetings to discuss planning, permitting,
monitoring, Toxics and grant activities with states. The States use these meetings as a forum to
report to EPA on their progress. The last meeting was held in November, 2002.

Air Permitting. The Air Permitting program conducts monthly conference calls with the State
on permitting progress and on current permitting issues. Region 6 permitting staff review draft
Title V permits and provide comments to the state on an on-going basis. In addition, we
conducted an on-site Title V Permit Review in December, 2002.

Air Planning. The Air Planning program conducts monthly Air Planning Conference calls with
the State on a variety of planning and SIP-related activities. We review proposed LDEQ
regulations and provide comments during State public comment periods and review and approve
final LDEQ regulations into the SIP. Staff from the air planning program also participated in the
Baton Rouge Ozone Taskforce stakeholder process during 2001 and the Shreveport Early Action
Compact Stakeholder process during 2002.

Air Quality Analysis. The Air Quality Analysis program oversees Louisiana's implementation
and operation of air monitoring devices supported by the National Air Monitoring Station
(NAMS) and State and Local Air Monitoring Station (SLAMS) networks. The Air Quality
Analysis program has also been closely involved in establishment, data processing, and data
analysis for special Photochemical Air Monitoring Stations (PAMS) sites in the Baton Rouge
area. The PAMS are particularly designed to give detailed information about ozone and ozone
precursors in ozone non-attainment areas of special concern. We have also worked with
Louisiana on the deployment of a fine particulate monitoring network over the past three years.




                                               45
                                   State Enforcement Programs

                                       RCRA Enforcement

        Region 6's RCRA Enforcement Program reviews the States’ RCRA Enforcement
 Programs inspection and enforcement reports for adherence to the Hazardous Waste Civil
Enforcement Response Policy, dated March 15, 1996. Inspections that note violations,
specifically significant violations should be addressed by a Civil Enforcement action with a
penalty within a specific timeframe. Region 6 has noted that some of the violations are mis-
classified and that data is not entered into the RCRA data system properly and timely. Improper
data is an important issue because all data will be available to the public in FY 2003.

Coordination with states: Region 6 RCRA Enforcement has offered to hold periodic
conference calls with the states to coordinate inspections and enforcement actions. Monthly or
quarterly calls are held with those states that wish to participate.

File reviews: Region 6 RCRA Enforcement has begun to conduct file reviews for state
enforcement program oversight. File reviews have been conducted at three states and an
additional state review is to be conducted in FY03.

The following is a list of the data that the Region reviews for each state:

•      Number of inspections conducted in the various RCRA Facility types.
2.     Number of inspection types conducted.
3.     Review of Enforcement actions: SNC’s due formal enforcement, timely and appropriate
       formal enforcement for other than SNC violations.
4.     Four year trends in inspections, enforcement actions, penalties and SEPs.

**NOTE: RCRA does not do file reviews for midyear and end-of-year grant reviews.

                                      NPDES Enforcement

NPDES Delegation. Under the delegation documents (MOA, Program Description, and
Enforcement Management System), states are to operate and maintain an effective data
management system, compliance monitoring program, enforcement program and inspection
program, as well as effectively respond to citizens’ complaints and third party legal actions.

NPDES Oversight. The Region’s oversight program consists of quarterly coordination
meetings, semi-annual file reviews, training, daily and weekly coordination on enforcement
actions, policy development, data management, and oversight inspections.

Semi-Annual File Audits. The objective of file reviews is to ensure that the delegated program


                                                 46
is being operated in a manner consistent with the MOA, program description, and enforcement
management system. These documents include extensive and comprehensive requirements.
Periodically, a targeted review of selected portions of the program may be conducted in lieu of a
complete program review. In preparation for these file audits the State Compliance Monitoring
Coordinator and the NPDES Enforcement Coordinator, with input from the appropriate section
chiefs, will identify files for review from an extensive list of criteria. After facilities have been
selected for the audit, PCS retrievals for those facilities are reviewed prior to the audit to
determine whether the state met the timely and appropriate criteria for enforcement actions on
the major facilities and data input into PCS, according to the Enforcement Response Guide and
the PCS Policy Statement.

File Audits. A file audit involves both an administrative and a technical review to gain a
complete picture of each facility and identify trends and deficiencies. The file audits will
concentrate on:

       1. Facility Level Information in PCS.
       2. Permit Limits in PCS.
       3. Enforcement Order Limits.
       4. Discharge Monitoring Report (DMR) Data.
       5. Inspection Reports.
       6. Compliance Schedules.
       7. Enforcement Actions.
       8. QNCR.
       9. Citizen Complaints.
       10. Third Party Suits.

Summary of Audit Findings. The EPA audit team evaluates the audit findings and determines
the general areas of concern and/or trends to be discussed at the follow-up meeting. This
discussion may include information on whether the State is following their current policies and
procedures outlined in their MOA, EMS and other delegation documents. After the meeting, the
EPA state coordinators will prepare a meeting summary, along with a detailed report of each file
audit. This report will include positive program highlights, as well as any problems and/or
deficiencies noted. Recommendations to modify or update the delegation documents to meet the
most current procedures, resource concerns, and any training needed by state personnel will be
included. The state should follow up on findings and corrections which will be reviewed at the
next semi-annual audit. The EPA, as a result of the file audit, and consistent with the signed
delegation agreement, may initiate direct enforcement action against specific delegated facilities
if certain conditions are met.

                                         Air Enforcement

       In general, there is no formal protocol in use at this time. A national protocol for the Air


                                                 47
program was developed and used in the mid-1980's, but is no longer used, at least in most
regions. State expectations are identified in the MOU, PPG and 105 AIR grant.

        A monthly or quarterly conference call is used to share air enforcement information with
the States. Topics include discussion on high priority violators (HPV's), inspections, and other
issues related to the air enforcement program. The AFS data base is used to track enforcement
and inspection activity.

       An End-of Year (EOY) review for each State is conducted in cooperation with the 6PD
Air Program staff.




                                            48
                                                                            Appendix C

                                  Distribution

Office of Inspector General

      Inspector General

EPA Headquarters

      Assistant Administrator for Water (4101M)
      Assistant Administrator for Solid Waste and Emergency Response (5101T)
      Assistant Administrator for Air and Radiation (6101A)
      Assistant Administrator for Enforcement and Compliance Assurance (2201A)
      Agency Followup Official (2710A)
      Agency Audit Followup Coordinator (2724A)
      Associate Administrator for Congressional and Intergovernmental Relations (1301A)
      Associate Administrator for Communications, Education, and Media Relations (1101A)
      Director, Office of Regional Operations (1108A)

EPA Region 6

      Regional Administrator
      Deputy Regional Administrator
      Director, Water Quality Protection Division
      Director, Multimedia Planning and Permitting Division
      Director, Compliance Assurance and Enforcement Division
      Director, External Affairs
      Audit Followup Coordinator




                                        49
